Office of the City Attorney

James R. Rowader, Jr.
City Attorney
350 S. Fifth St., Room 210
Minneapolis, MN 55415
TEL 612.673.3000 TTY 612.673.2157

Direct 612.673.2063
brian.carter@minneapolismn.gov

March 24, 2021

Mr. Scott S. Harris
Clerk of the Supreme Court of the United States
Office of the Clerk
1 First Street NE
Washington, DC 20543-0001
Re:

VIA ELECTRONIC FILING

Teresa M. Graham, Petitioner v. Shannon S. Barnette, et al., Respondents
No. 20-896

Dear Mr. Harris:
I represent Respondents Shannon S. Barnette, Amanda Sanchez, Mohamed Noor, and the City
of Minneapolis in the above captioned case. Pursuant to United States Supreme Court Rule 30,
I write to request an extension of time to respond to the above Petition for Writ of Certiorari.
The current deadline is March 31, 2021. Because of a recent illness and recovery from COVID19 and my other workload, I respectfully request an extension of 30 days to respond to the
petition, which would make the due date April 30, 2021.
Sincerely,
/s/ Brian S. Carter
Brian S. Carter
Assistant City Attorney
cc:

Jordan S. Kushner, via electronic filing

